No.

IN THE
SUPREME COURT OF THE UNITED STATES
October Term 2020
AMY EVERETT,
Petitioner,

v.
COBB COUNTY, GEORGIA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS
Pursuant to Supreme Court Rule 33.1(h), I hereby certify that the Petition for Writ of
Certiorari by Petitioner Amy Everette contains _§RF2words, excluding the parts of the
document exempted by Supreme Court Rule 33.1(d).

Executed March 29, 2021.

1104 Milledge Road

Augusta, GA 30904
706-737-4040
jpbatson@aol.com

Attorney for Petitioner Everette
Counsel of Record

Member of Supreme Court Bar

 
